                                              OFFICE OF PUBLIC AFFAIRS


Office of Inspector General—Office of Audit




                                              AUDIT OF SPENDING AND MANAGEMENT
                                              CONTROL OF THE DEPARTMENT OF LABOR
                                              WEBSITES




                                                                     Date Issued: September 29, 2006
                                                                     Report Number: 03-06-007-01-001
U.S. Department of Labor                               SEPTEMBER 2006
Office of Inspector General
Office of Audit                                        Audit of Spending and Management Control of
                                                       the Department of Labor Websites

BRIEFLY…                                               WHAT OIG FOUND
Highlights of Report Number: 03-06-007-01-001, a       There are 35 DOL Internet websites and 7 DOL
report to the Assistant Secretary for Public Affairs   partnered or sponsored websites. We found the
                                                       35 DOL websites complied with the “common look
WHY READ THE REPORT                                    and feel” standards and the “dot-gov” suffix
                                                       requirements. The “common look and feel”
The U.S. Department of Labor (DOL), Office of          standards and the “dot-gov” requirements did not
Inspector General (OIG), conducted an audit of         apply to the seven DOL partnered or sponsored
the Enterprise Communications Initiative (ECI) of      websites.
DOL websites. We initiated the audit at the
suggestion of the Deputy Secretary of Labor. In        DOL agencies did not accurately account for the
July 2004, the Secretary of Labor announced the        costs of purchases, staff, and contracting services
ECI, to better manage DOL’s dispersed public           dedicated to developing and maintaining their
Internet and Intranet websites, communications         websites. Specifically, we found that:
centers and translation services. The prime
purpose of the ECI is to make more effective use           •   written policies requiring the use of the
of DOL assets by eliminating wasteful duplication              WEB accounting code for reporting the
and reconciling inconsistencies across the                     cost of developing and maintaining
Department’s communication channels that may                   websites as website costs were
confuse or mislead the public. The Secretary of                ineffective;
Labor delegated authority and assigned
responsibility to the Assistant Secretary for Public
                                                           •   DOL’s accounting system was not capable
Affairs for implementing and managing the ECI.
                                                               of allocating the cost of staff who spend
                                                               part of their time on website activities; and
WHY OIG CONDUCTED THE AUDIT
                                                           •   there was inadequate monitoring to
The OIG conducted the audit to answer the                      ensure that costs that were intended to be
following:                                                     reported as website costs were reported
                                                               correctly in DOLAR$.
    1. What is the universe of DOL Internet
       websites?                                       As a result of these deficiencies, DOL does not
                                                       have the ability to measure accurately the costs or
    2. Do DOL Internet websites comply with the        savings benefits of ECI as it relates to DOL
       “common look and feel” standards and the        Internet and Intranet activities.
       “dot-gov” suffix requirements?
                                                       WHAT OIG RECOMMENDED
    3. Are DOL agencies accurately accounting          We recommended that the Assistant Secretary for
       for the purchases, staff, and contracting       Public Affairs:
       resources dedicated to developing and
       maintaining their websites?                         1. Develop and implement specific policies
                                                              and procedures requiring DOL agencies to
READ THE FULL REPORT                                          report website related costs in DOLAR$.
To view the report, including the scope,
methodology, and full agency response, go to               2. Require agency management to monitor
                                                              the use of the WEB accounting code.
http://www.oig.dol.gov/public/reports
/oa/2006/03-06-007-01-001.pdf                              3. Work with the OCFO to develop
                                                               procedures for allocating the costs of
                                                               agency staff who work part-time on
                                                               website related activities.

                                                       The Deputy Assistant Secretary for Public Affairs
                                                       agreed with the findings and recommendations.
                      Audit of Spending and Management Control of the Department of Labor Websites



Table of Contents
                                                                                                                        PAGE
EXECUTIVE SUMMARY ................................................................................................ 3


ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 5


RESULTS
    There Are 35 DOL Internet Websites and 7 DOL Partnered or Sponsored
    Websites ................................................................................................................... 5

    DOL Internet Websites Complied with the “Common Look and Feel”
    Standards and the “Dot-Gov” Suffix Requirements. The “Common Look
    and Feel” Standards and “Dot-gov” Requirements Did Not Apply to the
    Seven DOL Partnered or Sponsored Websites ..................................................... 6

    DOL Agencies Are Not Fully Accounting for the Costs of Developing and
    Maintaining Their Websites .................................................................................... 7


EXHIBITS...................................................................................................................... 15
   A. List of DOL Internet Websites ............................................................................ 17

   B. List of DOL Partnered/Sponsored Websites..................................................... 19


APPENDICES ............................................................................................................... 21
   A. Background ......................................................................................................... 23

   B. Objectives, Scope, Methodology, and Criteria ................................................. 25

   C. Acronyms and Abbreviations ............................................................................ 29

   D. Agency Response ............................................................................................... 31




U.S. Department of Labor—Office of Inspector General                                                                            1
Report Number: 03-06-007-01-001
DISCUSSION DRAFT
Audit of District of Columbia’s Workforce Investment Act Programs




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                         U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-06-002-03-390
                Audit of Spending and Management Control of the Department of Labor Websites



Executive Summary
The U.S. Department of Labor (DOL), Office of Inspector General (OIG), conducted an
audit of the Enterprise Communications Initiative (ECI) of DOL websites. We initiated
the audit at the suggestion of the Deputy Secretary of Labor.

In July 2004, the Secretary of Labor announced the ECI, to better manage DOL’s
dispersed public Internet and Intranet websites, communications centers and translation
services. The prime purpose of the ECI is to make more effective use of DOL assets by
eliminating wasteful duplication and reconciling inconsistencies across the Department’s
communication channels that may confuse or mislead the public. The ECI supports the
President's Management Agenda component of expanded E-Gov by utilizing the
Internet to support the dissemination of vital DOL information and data to the public.
The Secretary of Labor delegated authority and assigned responsibility to the Assistant
Secretary for Public Affairs (ASPA) for implementing and managing the ECI. Under the
ASPA, the Office of Public Affairs (OPA) is responsible for establishing ECI policies,
standards, and procedures designed to provide an operational and technical framework
that facilitates the agencies’ ability to meet their program missions and functions while
ensuring departmental compliance with administrative and legislative requirements and
mandates.

We conducted the audit to answer the following:

   1. What is the universe of DOL Internet websites?

   2. Do DOL Internet websites comply with the “common look and feel” standards and
      the “dot-gov” suffix requirements?

   3. Are DOL agencies accurately accounting for the purchases, staff, and contracting
      resources dedicated to developing and maintaining their websites?

Results

There are 35 DOL Internet websites and 7 DOL partnered or sponsored websites. We
found the 35 DOL websites complied with the common look and feel standards and the
“dot-gov” suffix requirements. The “common look and feel” standards and the “dot-gov”
requirements did not apply to the seven DOL partnered or sponsored websites.

DOL agencies did not accurately account for the costs of purchases, staff, and
contracting services dedicated to developing and maintaining their websites.
Specifically, we found that agencies did not always use the WEB accounting code to
ensure that costs dedicated to developing and maintaining websites were reported as
website costs in DOL’s accounting system, DOLAR$. Therefore, the website costs in


U.S. Department of Labor—Office of Inspector General                                      3
Report Number: 03-06-007-01-001
Audit of Spending and Management Control of the Department of Labor Websites

DOLAR$ are understated.1 We found that: written policies requiring the use of the
WEB accounting code for reporting the cost of developing and maintaining websites as
website costs were ineffective; DOL’s accounting system was not capable of allocating
the cost of staff who spend part of their time on website activities; and there was
inadequate monitoring to ensure that costs that were intended to be reported as website
costs were reported correctly in DOLAR$. As a result, DOL does not have the ability to
measure accurately the costs savings benefits of ECI as it relates to DOL Internet and
Intranet activities.

Recommendations

We recommend that the Assistant Secretary for Public Affairs:

1. Develop and implement specific policies and procedures requiring DOL agencies to
   report website related costs in DOLAR$.

2. Require agency management to monitor the use of the WEB accounting code.

3. Work with the OCFO to develop procedures for allocating the costs of agency staff
   who work part-time on website related activities.

Agency Response

In response to the draft audit report, the Deputy Assistant Secretary for Public Affairs
agreed with the report’s findings and recommendations, but did not provide specific
corrective actions because those actions will require the involvement of other agencies.

OIG Conclusion

The recommendations are unresolved, pending receipt of a corrective action plan.




1
 The costs may have been accurately reported in the DOLAR$; however, the agencies did not report the costs as
website costs by using the WEB accounting code.

4                                                 U.S. Department of Labor—Office of Inspector General
                                                                      Report Number: 03-06-007-01-001
                Audit of Spending and Management Control of the Department of Labor Websites

U.S. Department of Labor                       Office of Inspector General
                                               Washington, DC 20210




                         Assistant Inspector General’s Report

Mr. Jim Schaefer
Deputy Assistant Secretary
 for Public Affairs
U. S. Department of Labor
200 Constitution Avenue, NW
Washington, DC 20210

The U.S. Department of Labor (DOL), Office of Inspector General (OIG), conducted an
audit of the Enterprise Communications Initiative (ECI) of DOL websites. We initiated
the audit at the suggestion of the Deputy Secretary of Labor.

We conducted the audit to answer the following:

   1. What is the universe of DOL Internet websites?

   2. Do DOL Internet websites comply with the “common look and feel” standards and
      the “dot-gov” suffix requirements?

   3. Are DOL agencies accurately accounting for the purchases, staff, and contracting
      resources dedicated to developing and maintaining their websites?

We conducted our audit in accordance with Generally Accepted Government Auditing
Standards for performance audits. Our objectives, scope, methodology, and criteria are
detailed in Appendix B.


Objective 1 – What is the universe of DOL Internet websites?

Results – There are 35 DOL Internet Websites and 7 DOL Partnered or Sponsored
Websites.

On July 9, 2004, the Office of Public Affairs (OPA) implemented a policy requiring
approval for all DOL agency Internet and Intranet websites. The policy requires
agencies to submit a “Request for Web Site Authorization Form” to OPA for approval
and once the approval has been granted, a domain name request can be submitted to
OPA.


U.S. Department of Labor—Office of Inspector General                                      5
Report Number: 03-06-007-01-001
Audit of Spending and Management Control of the Department of Labor Websites

To determine the universe of DOL Internet websites, we obtained a schedule of the
Department’s Internet websites from OPA. We then performed an Internet web search
using the names of DOL agencies and listed all identifiable departmental Internet
websites. Next, we compared our list to OPA’s schedule and reconciled any differences
with OPA officials.

We identified 35 DOL websites and 7 DOL partnered or sponsored websites. See
Exhibit A for a list of the 35 DOL websites and Exhibit B for a list of the 7 DOL partnered
or sponsored websites.


Objective 2 – Do DOL Internet websites comply with the “common look and feel”
standards and the “dot-gov” suffix requirements?


Results – DOL Internet Websites Complied with the “Common Look and Feel”
Standards and the “Dot-gov” Suffix Requirements. The “Common Look and
Feel” Standards and “Dot-gov” Requirements Did Not Apply to the Seven DOL
Partnered or Sponsored Websites.

Common look requirements are contained in the DOL Web Community Standards for
Design, Navigation & Cross–Functionality Standards.2 According to this document, the
common design, navigation, and cross-functionality standards were established for all
DOL agency websites to offer customers full access to the entire range of the
Department’s web-based information and services, regardless of the point at which they
enter the system. The document states that reaching the goal of providing the
convenience of "one-stop shopping" in a large and diverse web community requires that
each agency’s website, in addition to serving its own particular constituency, must be
recognizable as part of the DOL network of websites and provide mechanisms for
consistent, Department-wide navigation. The document establishes common design,
navigation, and cross-functionality standards for all DOL agency websites and provides
guidance for the DOL web community in the design and development of web pages
based on these standards. For exceptions or changes to the standards, agencies must
submit a request to the OPA. OPA will share the request with the Content Workgroup
and the Internet Management Group (IMG) for review and approval.

We reviewed OPA’s policies and procedures contained in the DOL Web Community
Standards for Design, Navigation, & Cross-Functionality. We identified the standards
that agencies were required to follow in order to achieve the “common look and feel.”
We then visited the Internet websites identified in our universe and determined if the
websites complied with each of the standards contained in the policies and procedures.
We reviewed the websites for compliance with the standards for the following:




2
    Dated April 4, 2002, and updated on May 15, 2002, to reflect changes approved by the DOL IMG.

6                                                  U.S. Department of Labor—Office of Inspector General
                                                                       Report Number: 03-06-007-01-001
                   Audit of Spending and Management Control of the Department of Labor Websites



        •   Color Palette
        •   Typography
        •   Page Header
        •   Page Body
        •   Links
        •   Visual Hierarchy
        •   Page Footer
        •   Right Navigation Bar
        •   Horizontal Navigation Bar
        •   Destination Page
        •   Search Index
        •   Contact Us

We determined the 35 DOL Internet websites complied with the “common look and feel”
guidelines standards developed by DOL's IMG. Also, all agency requests for
exceptions from the website standards were approved by the Office of the Assistant
Secretary for Policy. The “common look and feel” standards did not apply to the seven
DOL partnered or sponsored websites.

DOL’s Domain Name Request Principle states that a Fully Qualified Domain Name
(FQDN) is a website’s full name including the extension, e.g., www.dol.gov. All FQDNs
for DOL websites must end with “dot.gov”, except for partnered sites. We determined
that all 35 DOL Internet websites complied with the “dot-gov” suffix requirement.


Objective 3 – Are DOL agencies accurately accounting for purchases, staff, and
contracting resources dedicated to developing and maintaining the agencies’
websites?

Results – DOL Agencies Are Not Fully Accounting for the Costs of Developing
and Maintaining Their Websites.

DOL agencies did not accurately account for the costs of purchases, staff, and
contracting services dedicated to developing and maintaining their websites.
Specifically, we found that agencies did not always use the WEB accounting code to
ensure that costs dedicated to developing and maintaining websites were reported as
website costs in the Department’s accounting system (DOLAR$). Therefore, the
website costs in DOLAR$ are understated.3 We found that: written policies requiring
the use of the WEB accounting code for reporting the cost of developing and
maintaining websites as website costs were ineffective; DOL’s accounting system was
not capable of allocating the cost of staff who spend part of their time on website

3
 The costs may have been accurately reported in the DOLAR$; however, the agencies did not report the costs as
website costs by using the WEB accounting code.

U.S. Department of Labor—Office of Inspector General                                                            7
Report Number: 03-06-007-01-001
Audit of Spending and Management Control of the Department of Labor Websites

activities; and there was inadequate monitoring to ensure that costs that were intended
to be reported as website costs were reported correctly in DOLAR$. As a result, DOL
does not have the ability to measure accurately the costs savings benefits of ECI as it
relates to DOL Internet and Intranet websites.

One of the benefits of implementing the ECI was to leverage economies of scale.
According to OPA, the ECI consolidation efforts can result in significant cost savings by
reducing duplicative systems. OPA estimated the cost savings to be $141 million over
10 years. Therefore, it is important that OPA has accurate website costs in order to
measure the benefits of consolidating agency website resources.

The requirements for reporting website costs in DOLAR$ are provided in a January 8,
2004, memorandum for Agency Heads jointly issued by the Acting Assistant Secretary
for Public Affairs, the Assistant Secretary for Administration and Management, and the
Assistant Secretary for Policy. The memorandum stated that the Department has taken
several steps, like the new WEB accounting code, to begin to quantify what is being
spent in the Department overall on web-related development. The memorandum stated
that in order to help agencies keep track of website costs, the Office of the Chief
Financial Officer (OCFO) has created a new project code for Web-related purchases.
The WEB code should be used to identify any procurement of website or Internet
equipment or services including:

          •   Software
          •   Graphics production/editing
          •   Programming editors
          •   Animation
          •   Database applications
          •   Metrics applications
          •   Content management applications
          •   Hardware
          •   Web servers
          •   Email servers
          •   Development systems
          •   Contract services
          •   Hosting services
          •   Contract developers

The memorandum went on to state that by capturing this data in the accounting system,
DOL will be able to generate useful management information. Further, the
memorandum stated that the agency's staff has been advised that the WEB code
should be added to the 22-digit appropriations code and that procurement officers have
been informed of this requirement and will be reviewing purchases to ensure the code is
used where appropriate.




8                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-06-007-01-001
                Audit of Spending and Management Control of the Department of Labor Websites

There were two subsequent memoranda issued to agency heads reminding them of
DOL website policies requiring the use of the WEB accounting code for all website
related expenses. The first memorandum was issued by the Secretary of Labor on
July 20, 2004, and the second memorandum was jointly issued by the Assistant
Secretary for Administration and Management, the Chief Information Officer and the
Assistant Secretary for Public Affairs, on July 29, 2005.

OPA officials told us that the January 8, 2004, memorandum was the primary policy for
agencies to follow in reporting website costs and they had conducted several
presentations on the requirement to include the payroll costs of Department employees
working on websites.

To determine if agencies were accurately accounting for website costs, we judgmentally
selected five agencies using a report of website costs from DOLAR$ as of June 16,
2006. The DOLAR$ report showed $6,233,031 in the total website costs reported using
the WEB accounting code. We selected two agencies that did not report any website
costs, two agencies that appeared to have underreported website costs, and one
agency that appeared to have accurately reported website costs. At these agencies, we
interviewed staff responsible for the management of the websites, staff responsible for
procuring website related goods and services, and staff responsible for reporting
website costs in DOLAR$. We obtained an understanding of the agencies’ internal
controls related to reporting website costs in DOLAR$ and obtained and reviewed
applicable policies and procedures.

The following table shows the amount of costs reported in DOLAR$ using the WEB
accounting code for the period FY 2004 to June 16, 2006.

                           Agencies’ Website Costs in DOLAR$
                               FY 2004 to June 16, 2006

         Agency                                                      Amount
         Employment Standards Administration                             $10,000
         Bureau of Labor Statistics                                           $0
         Occupational Safety and Health Administration                        $0
         Employment and Training Administration                       $1,021,906
         Mine Safety and Health Administration                          $115,909
         OCFO                                                           $192,129
         OPA                                                          $3,979,646
         Office of Assistant Secretary for Administration and
                                                                        $748,130
         Management (OASAM)
         Office of Administrative Law Judges                             $10,000
         Office of the Deputy Secretary                                  $10,000
         Office of the Solicitor                                         $70,000
         Office of the Assistant Secretary for Policy                    $75,311
         Total                                                        $6,233,031


U.S. Department of Labor—Office of Inspector General                                      9
Report Number: 03-06-007-01-001
Audit of Spending and Management Control of the Department of Labor Websites

Overall, we concluded that DOL agencies are not accurately accounting for the costs of
purchases, staff, and contracting services dedicated to developing and maintaining their
websites. DOL agency staff told us that written policies requiring the reporting of
website related costs were unclear and they needed further guidance on what costs
were required to be reported as website cost using the WEB code. Additionally, DOL
agency staff told us that PeopleTime, the Department’s payroll system, is not capable of
allocating the cost of staff who spend part of their time on website activities. Finally, we
concluded that agency monitoring to ensure costs that were intended to be reported as
website costs were reported correctly in DOLAR$ was ineffective.

The following provides details of the results at each agency selected for review.

Sampled Agencies That Reported No Website Costs

Occupational Safety and Health Administration (OSHA)

OSHA did not report any website costs in DOLAR$ as of June 16, 2006. OSHA officials
had problems using the WEB accounting codes in the Department’s e-Procurement
System (EPS) and they were uncertain of the WEB accounting guidance policies.
Therefore, they maintained their own records of the website costs incurred and did not
report them in DOLAR$ using the WEB accounting code.

OSHA officials said they encountered problems in their initial attempt to use the WEB
accounting code with the Department’s e-Procurement System (EPS). They
acknowledged that they did not follow up to ensure the WEB project code worked after
DOL addressed the problems with the EPS. OSHA officials recommended that for
better reliability, the OCFO should establish two specific subobject class codes in “Other
Services.”

Concerning the type of costs to report, OSHA officials also told us there was confusion
on their part as to what constituted “web development and maintenance” costs and
whether program costs for developing materials that use the medium of the web should
be included. They were also not clear on some of the cost item requirements. OSHA
officials also told us they have websites for various region/state areas. Since these
region/state areas have different issues, OSHA is responsible for maintaining and
updating the websites’ content. OSHA officials told us they received conflicting
guidance from OPA on whether or not to include the costs of these websites. Rather
than misstate their actual costs in DOLAR$, OSHA officials decided it was better to
maintain their website costs “off-line” and not report them.

OSHA officials provided us documentation that showed the costs for the headquarters’
website totaled $5,757,967 for FY 2004 through July 2006. We did not audit these
costs and are only disclosing them to show the significance of the potential costs not
reported as website costs in DOLAR$. Subsequent to our work at OSHA, we obtained
an updated report of website costs in DOLAR$ as of July 27, 2006. We found that the
balance for OSHA showed $242,500.


10                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-06-007-01-001
                Audit of Spending and Management Control of the Department of Labor Websites


Bureau of Labor Statistics (BLS)

DOLAR$ did not reflect any website costs for BLS as of June 16, 2006. Officials told us
they reported BLS website costs when the WEB accounting code became available and
that as of July 30, 2006, the costs should be $4,040,177. Subsequently, we requested
an updated DOLAR$ report from the OCFO. The report, dated July 27, 2006, showed
that BLS had $4,040,177 in website costs for the period FY 2004 to current. We
followed up with the OCFO and were told the June 16, 2006, report was in error and the
BLS used the WEB accounting code the last two fiscal years.

Concerning payroll costs, BLS officials stated they did not use the WEB accounting
code for the cost of BLS staff working on website activities. BLS officials stated that the
January 8, 2004, memorandum and follow-up memoranda on reporting website costs
did not direct agencies to include Federal staff compensation costs. Additionally, BLS
officials stated that DOLAR$ does not have the capability for using the WEB accounting
code for staff who spend part of their time on website activities. BLS estimated staff
costs for website activities to be $1,454,468 for FY 2006.

As a result of our audit work, BLS officials stated they now believe that the amount of
funds obligated under the WEB accounting code may be overstated in two ways. First,
the reported costs captured data management activities of contract staff, which officials
stated will be excluded in the future. Secondly, BLS officials stated that they need to
revisit the inclusion of the costs for their Internet Data Collection Facility (IDCF) website
and the BLS Central Intranet website based on the definitions in Secretary’s Order 2-
2005. They stated the IDCF is a web-based data collection application, which is
restricted to respondents who must authenticate themselves before proceeding past the
home page, while the BLS Central Intranet website is restricted to BLS staff. BLS
officials stated that both websites are outside the scope of the ECI. BLS officials said
they would work with the Department to refine their use of the WEB accounting code.

The above results demonstrate that agencies had differing interpretations of DOL’s
website cost reporting policies. Based on interviews with OPA officials and a review of
the Secretary's Order and policy memorandum, we believe the intent of the policies is to
include the cost of Intranet websites and that the costs of agency staff working on
website activities should be reported using the WEB accounting code.

Sampled Agencies That Appeared to Have Underreported Website Costs

Employment Standards Administration (ESA)

The DOLAR$ report as of June 16, 2006, showed that ESA reported $10,000 in website
costs. ESA officials told us that the January 8, 2004, memorandum on reporting the
website costs in DOLAR$ using the WEB accounting code was confusing. The
memorandum mentioned items not generally used for web development and
maintenance and ESA believed that the memorandum did not relate to its web


U.S. Department of Labor—Office of Inspector General                                       11
Report Number: 03-06-007-01-001
Audit of Spending and Management Control of the Department of Labor Websites

operations. Thus, costs associated with web development and maintenance may have
been omitted or not properly captured.

Additionally, ESA officials told us that OPA develops, hosts, and publishes the ESA’s
Internet website. As a result, most of the website costs for ESA are staff payroll or
contractor related and may be included in multiple duties and responsibilities performed
by these individuals. These costs are extremely difficult for the Agency to capture and
report using the WEB accounting code. ESA officials believe these costs may not be
material.

Employment and Training Administration (ETA)

The DOLAR$ report as of June 16, 2006, showed that ETA reported $1,021,906 in
website costs. ETA officials told us they have reported acquisition costs but not the
costs of ETA staff who spent time on websites.

ETA officials said that ETA website and budget staff enters the WEB accounting code
on procurement requests. However, ETA accounting staff inputs the procurement
request into EPS and OASAM executes the procurement. According to the ETA
website staff, they are uncertain if ETA accounting staff always enters the WEB
accounting code for website related procurements into EPS. ETA officials provided us a
listing of website related purchases. We compared these purchases to the June 2006
DOLAR$ report of website costs and found it was understated by $5.6 million.
Subsequently, we requested an updated DOLAR$ report on website costs from the
OCFO. The report, dated July 27, 2006, showed that ETA had $2,628,126 in website
costs for the period FY 2004 to current, which reduced the understated amount to
$4,064,199. We did not audit these costs and are only disclosing them to show the
significance of the potential costs not reported as website costs. We concluded that
ETA did not monitor the DOLAR$ reports to ensure that the costs using the WEB
accounting code were correctly entered.

ETA officials told us that they have two staff members who work full-time on the ETA
websites, but it was their interpretation that the January 8, 2004, memorandum did not
require payroll costs of Federal staff to be reported as website costs. ETA officials
stated that if this was a requirement, then the memorandum is not clear.

Sampled Agency That Appeared to Have Correctly Reported Website Costs

Mine Safety and Health Administration (MSHA)

The DOLAR$ report as of June 16, 2006, showed that MSHA reported $115,909 in
website costs. We classified MSHA as having correctly reported website costs because
the object class code on the DOLAR$ report showed these as personnel costs.
Therefore, MSHA was using the WEB accounting code to report the costs of staff who
spent time on website activities.



12                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-06-007-01-001
                Audit of Spending and Management Control of the Department of Labor Websites


MSHA officials told us that they have full-time staff working on MSHA’s websites;
therefore, they were able to use the WEB accounting code to report these costs.
However, subsequent to our initial interviews with MSHA officials, they did identify costs
totaling $34,866 that were not previously reported using the WEB accounting code.
MSHA officials told us they identified this during their reconciliation procedures.

   *      *       *      *      *      *       *       *    *      *      *      *

Based on the above results, we concluded that the internal controls to ensure that
website costs are properly reported were ineffective. The January 8, 2004,
memorandum, the primary policy for agencies to follow in reporting website costs, is not
clear on the specific type of costs (such as Federal staff costs and agency Intranet
costs) that should be reported as website costs. Additionally, the memorandum is not
available on OPA’s ECI web page on DOL’s Labornet Intranet website. There are no
DOL-wide procedures to use the WEB accounting code to allocate the cost for agency
Federal staff who spend part of their time on website related activities. Finally, we
concluded that some agencies were not effectively monitoring whether the WEB
accounting codes were properly entered into DOLAR$ by reconciling DOLAR$ query
reports to website costs that were intended to be coded using the WEB accounting
code.

OASAM procurement officials told us that its Business Operations Center (BOC), Office
of Procurement Services (OPS), is responsible for procuring IT-related acquisitions for
DOL agencies except for MSHA, Job Corps, and BLS. DOL agencies are responsible
for entering the WEB accounting code on their procurement documents. In June 2006,
OASAM notified agency procurement officials that OPS has been tasked with reviewing
procurement items to ensure compliance with website related cost reporting
requirements. Therefore, OPS implemented a procedure requiring agencies to
complete a memorandum stating whether or not the computer based services are
website related costs. The OPS specialist will review the purchase order, and if the
specialist recognizes that the product is website-related, or the purchase order is
marked with the WEB accounting code, the specialist will check the “Internet Page
Development Services” box on the OPS Approval Checklist. The website related
procurements are then sent to OPA for approval. We obtained a DOLAR$ report dated
July 27, 2006, of website costs reported using the WEB accounting code. This report
showed total website costs to be $18,607,500, a significant increase from the June 16,
2006, report. We did not determine the reasons for the differences between the two
reports.




U.S. Department of Labor—Office of Inspector General                                     13
Report Number: 03-06-007-01-001
Audit of Spending and Management Control of the Department of Labor Websites

Recommendations:

We recommend that the Assistant Secretary for Public Affairs:

1. Develop and implement specific policies and procedures requiring DOL agencies to
   report website related costs in DOLAR$.

2. Require agency management to monitor the use of the WEB accounting code.

3. Work with the OCFO to develop procedures for allocating the costs of agency staff
   who work part-time on website related activities.

Agency Response

In response to the draft audit report, the Deputy Assistant Secretary for Public Affairs
agreed with the report’s findings and recommendations, but did not provide specific
corrective actions because those actions will require the involvement of other agencies.

OIG Conclusion

The recommendations are unresolved, pending receipt of a corrective action plan.



Elliot P. Lewis
August 24, 2006




14                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-06-007-01-001
                Audit of Spending and Management Control of the Department of Labor Websites




Exhibits




U.S. Department of Labor—Office of Inspector General                                     15
Report Number: 03-06-007-01-001
Audit of Spending and Management Control of the Department of Labor Websites




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




16                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-06-007-01-001
                 Audit of Spending and Management Control of the Department of Labor Websites

                                                                                        EXHIBIT A

                               List of DOL Internet Websites

Count                            Site Name                                          URL
    1    DOL Home Page                                              http://www.dol.gov/
                    Organizational Home Pages
     2   Office of the 21st Century Workforce                       http://www.dol.gov/21cw/
     3   Administrative Review Board                                http://www.dol.gov/arb/
     4   Bureau of Labor Statistics                                 http://www.bls.gov/
     5   Benefits Review Board                                      http://www.dol.gov/brb/
     6   Center for Faith-Based & Community Initiative              http://www.dol.gov/cfbci/
     7   Employee Benefits Security Administration                  http://www.dol.gov/ebsa/
     8   Employee Compensation Appeals Board                        http://www.dol.gov/ecab/
     9   Ombudsman for the Energy Employees Occupational            http://www.dol.gov/eeombd/
         Illness Compensation Program
    10   Employment Standards Administration                        http://www.dol.gov/esa/
    11   Office of Federal Contract Compliance Programs             http://www.dol.gov/esa/ofccp/
    12   Office of Labor-Management Standards                       http://www.dol.gov/esa/olms_org.htm
    13   Office of Workers’ Compensation Programs                   http://www.dol.gov/esa/owcp_org.htm
    14   Wage and Hour Division                                     http://www.dol.gov/esa/whd/
    15   Employment & Training Administration                       http://www.doleta.gov/
    16   Bureau of International Labor Affairs                      http://www.dol.gov/ilab/
    17   Mine Safety & Health Administration                        http://www.msha.gov/
    18   Office Safety & Health Administration                      http://www.oalj.dol.gov/
    19   Office of the Assistant Secretary for Administration and   http://www.dol.gov/oasam/
         Management
    20   Office of the Assistant Secretary for Policy               http://www.dol.gov/asp/
    21   Office of the Chief Financial Officer                      http://www.dol.gov/ocfo/
    22   Office of Congressional Intergovernmental Affairs          http//www.dol.gov/ocia/bio-
                                                                    iverson.htm
    23   Office of the Information Officer                          http://www.dol.gov/cio/
    24   Office of Disability Employment Policy                     http://www.dol.gov/odep/
    25   Office of Inspector General                                http://www.oig.dol.gov/
    26   Office of Small Business Programs                          http://www.dol.gov/osbp/
    27   Office of the Secretary                                    http://www.dol.gov/_sec/
    28   Occupational Safety & Health Administration                http://www.osha.gov/
    29   Office of the Solicitor                                    http://www.dol.gov/sol/
    30   Veterans’ Employment & Training Service                    http://www.dol.gov/vets/
    31   Women’s Bureau                                             http://www.dol.gov/wb/
    32   Employment Standard Administration – Youth2Work            http://youth2work.gov/; File Location:
                                                                    /_virtuals/youth2work/
    33   Employment Standard Administration - Youth Rules!          http://www.youthrules.dol.gov/; File
                                                                    Location: /_virtuals/youthrules/
    34   Office of the Assistant Secretary for Policy - elaws       http://www.elaws.dol.gov/; Redirect
                                                                    to http://www.dol.gov/elaws/
    35   Job Corps                                                  http://jobcorps.dol.gov




U.S. Department of Labor—Office of Inspector General                                               17
Report Number: 03-06-007-01-001
Audit of Spending and Management Control of the Department of Labor Websites




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




18                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-06-007-01-001
                Audit of Spending and Management Control of the Department of Labor Websites

                                          EXHIBIT B

                      List of DOL Partnered/Sponsored Websites

  Count            Site Name and Partner/Sponser                             URL

      1   21CW / Women-21                                http://www.women-21.gov/
          Office of the 21st Century Workforce

      2   ESA – Wage Determinations Online               http://www.wdol.gov/
          Employment Standard Administration

      3   ETA – America’s Career Information Net         http://www.acinet.org
          Employment & Training Administration

      4   ETA – America’s Job Bank                       http://www.ajb.dni.us/
          Employment & Training Administration

      5   ETA – Job Corps Career Development Resource    http://www.jccdrc.org/
          Employment & Training Administration

      6   ITC – GovBenefits                              http://www.govbenefits.gov/
          Information Technology Center

      7   ODEP – Disability Information                  http://www.disabilityinfo.gov/
          Office of Disability Employment Policy




U.S. Department of Labor—Office of Inspector General                                      19
Report Number: 03-06-007-01-001
Audit of Spending and Management Control of the Department of Labor Websites




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




20                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-06-007-01-001
                Audit of Spending and Management Control of the Department of Labor Websites




Appendices




U.S. Department of Labor—Office of Inspector General                                     21
Report Number: 03-06-007-01-001
Audit of Spending and Management Control of the Department of Labor Websites




               PAGE HAS BEEN INTENTIONALLY LEFT BLANK




22                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-06-007-01-001
                Audit of Spending and Management Control of the Department of Labor Websites

                                                                             APPENDIX A
BACKGROUND

In July 2004, the Secretary of Labor announced the ECI to better manage DOL’s
dispersed public Internet and Intranet websites, communications centers, and
translation services. The prime purpose of the ECI is to eliminate wasteful duplication
of DOL communication assets and reconcile inconsistencies across the Department’s
communication channels that may confuse or mislead the public. The ECI supports the
President's Management Agenda component of expanded E-Gov by utilizing the
Internet to support the dissemination of vital DOL information and data to the public.

On September 30, 2005, the Secretary of Labor issued Secretary’s Order 2-2005, to
establish policy and assign responsibilities for the management of the DOL enterprise
communications services, namely, Internet and Intranet websites, telephone contact
centers, electronic correspondence, translation services, and similar activities. The
order delegated authority and assigned responsibility to the Assistant Secretary for
Public Affairs (ASPA) for implementing and managing the ECI. Additionally, it directed
OPA to establish ECI policies, standards, and procedures designed to provide an
operational and technical framework that facilitates the agencies’ ability to meet their
program missions and functions while ensuring departmental compliance with
administrative and legislative requirements and mandates.

Concerning DOL Agency Heads, the order delegated authority and assigned them
responsibility for developing, implementing, improving, and expanding their respective
agency enterprise communications services in accordance with DOL policy and
standards. One of the responsibilities listed in the order was that DOL agency heads
ensure that DOL policies, standards, and procedures are implemented, as applicable.

The ECI sets “best practice” standards and guidelines, and, where feasible, establishes
centralized facilities – some hardware-based, some software-based, and some
procedural. DOL agencies are expected to participate in consolidating services unless
they could make a business case that such participation was contrary to statute or
regulation, or otherwise would have a negative impact on the ability of the agency to
fulfill its mission and its responsibilities to the U.S. taxpayers.

The ECI recognizes that each individual agency has its own specific mission,
responsibilities, and customer base, and consolidation efforts would be most applicable
to agency functions that overlap or have a high degree of compatibility. DOL designed
the ECI to consolidate those services with clear benefit to participating agencies. The
benefits will be measurable and demonstrable.

One of the benefits of implementing the ECI is to leverage economies of scale.
According to OPA, the ECI consolidation efforts can result in significant costs saving,
estimated to be $141 million over 10 years, by reducing duplicative systems.



U.S. Department of Labor—Office of Inspector General                                      23
Report Number: 03-06-007-01-001
Audit of Spending and Management Control of the Department of Labor Websites

OPA’s Division of Enterprise Communications, formerly called the Division of Web
Communication Services, is responsible for the centralization of e-correspondence, call
center, Internet, Intranet, and translation services within DOL.




24                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-06-007-01-001
                Audit of Spending and Management Control of the Department of Labor Websites

                                                                             APPENDIX B
OBJECTIVES, SCOPE, METHODOLOGY, AND CRITERIA

The Deputy Secretary of Labor suggested that OIG conduct an audit of DOL’s spending
on, and management control over, its websites.

Objectives

We conducted the audit to answer the following:

   1. What is the universe of DOL Internet websites?

   2. Do DOL Internet websites comply with the “common look and feel” and the “dot-
      gov” suffix requirement?

   3. Are DOL agencies accurately accounting for the purchases, staff, and contracting
      resources dedicated to developing and maintaining their websites?

Scope and Methodology

For website costs, our audit included both Internet and Intranet sites because
Secretary's Order 2-2005, stated that the consolidation of agency resources covered
both Internet and Intranet. For the common look and universe of websites, our audit
only included DOL Internet websites. We did not include Intranet sites in the common
look and feel work because the Secretary's Order stated Intranet sites were not within
the scope of the ECI. We did not consider the number of Intranet sites in our
determination of the universe because of the amount of time that would have been
needed to identify and access agency Intranet websites and count them. For DOL
Internet and Intranet website costs, our audit covered the period FY 2004 through July
2006, and for the common look and universe of DOL websites, our audit covered
Internet websites operational as of March, 2006.

To determine the universe of DOL Internet websites, we obtained a schedule of
the Department’s Internet websites from OPA. We then performed an Internet
web search using the names of DOL agencies and listed all identifiable
departmental Internet websites. Next, we compared our list to OPA’s schedule
and reconciled any differences with OPA officials.

To determine if DOL agencies complied with the Secretary’s Order 2-2005, requiring all
websites have a “common look and feel” and the “dot-gov” suffix, we reviewed OPA’s
policies and procedures contained in the DOL Web Community Standards for Design,
Navigation, & Cross-Functionality. We identified the standards that agencies were
required to follow in order to achieve the “common look and feel.” We then visited each
of the Internet websites identified in our universe and determined if the website
complied with each of the standards contained in the policies and procedures.


U.S. Department of Labor—Office of Inspector General                                     25
Report Number: 03-06-007-01-001
Audit of Spending and Management Control of the Department of Labor Websites

To determine if DOL agencies accurately reported website costs, we interviewed
OASAM, OCFO, and OPA officials to determine the policies and procedures
agencies were required to follow to report website related costs in DOLAR$.
There were 19 DOL agencies that had Internet websites. We requested a
DOLAR$ report on website related costs from the time the costs were required to
be reported to June 16, 2006. The report showed the total website’s costs using
the WEB accounting code were $6,233,031. Using this report, we judgmentally
selected five agencies for our audit. Specifically, we selected two agencies that
did not report any website costs, two agencies that appeared to have under-
reported website costs, and one agency that appeared to have accurately
reported website costs. The agencies and purpose for selecting them were as
follows:

     •   OSHA and BLS – Did not report website costs.

     •   ESA and ETA – Appeared to have underreported website costs.

     •   MSHA - Appeared to have accurately reported website costs.

At these agencies, we interviewed staff responsible for the management of the
websites, procuring website related goods and services, and reporting website
costs in DOLAR$. We obtained an understanding of the agencies’ internal
controls related to reporting website costs in DOLAR$ and obtained and
reviewed applicable policies and procedures.

Internal Controls

Our work on established internal controls included obtaining and reviewing policies and
procedures, as well as, interviewing key personnel. We gained an understanding of the
data flows in each audit area and documented a description of the controls. Our testing
of internal controls focused only on the controls related to our objectives of assessing
compliance with significant laws, regulations, and policies and procedures and was not
intended to form an opinion on the adequacy of internal controls overall, and we do not
render such an opinion. Weaknesses noted in our testing are discussed in the Results
and Findings section of this report.

Auditing Standards

We conducted our audit in accordance with Generally Accepted Government Auditing
Standards for performance audits. Fieldwork was conducted from March 15, 2006, to
August 24, 2006. We performed all our fieldwork at the agencies’ national offices in
Washington, DC.

An audit made in accordance with these standards provides reasonable assurance that
its objectives have been achieved, but it does not guarantee the discovery of illegal



26                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-06-007-01-001
                Audit of Spending and Management Control of the Department of Labor Websites

acts, abuse, or all internal control weaknesses. We believe our audit provides a
reasonable basis for our assessment and conclusions.

The conclusions provided in this report are the result of our audit for the period March to
August 2006, unless cited otherwise in this report. Changes in management of the
program, including changes in controls, laws, regulations, and other compliance
requirements, could result in performance that would be different from the performance
during that period.

Criteria

We used the following criteria to perform this audit:

   •   DOL Web Community Standards for Design, Navigation & Cross – Functionality
       Standards, April 4, 2002, (updated to reflect changes approved by the IMG on
       May 15, 2002)

   •   Memorandum for Agency Heads from Chris Spear, Assistant Secretary for
       Policy, - Agency Web Review and Clearance Processes, December 15, 2003

   •   Memorandum for Agency Heads from Lisa Kruska, Acting Assistant Secretary for
       Public Affairs, Patrick Pizzella, Assistant Secretary for Administration and
       Management, Chief Information Officer and Chris Spear, Assistant Secretary for
       Policy, - Improving the Management of DOL Web Sites, January 8, 2004

   •   Agency Web Review and Clearance Process Guidelines, February 1, 2004

   •   New Web Site Authorization, Updated July 9, 2004

   •   Domain Name Service Request Principles, no date

   •   Memorandum for Agency Heads from Elaine L. Chao, Secretary of Labor, -
       Consolidation of DOL Communication Services, July 20, 2004

   •   Office of Management and Budget Memorandum for the Heads of Executive
       Departments and Agencies – Policies for Federal Agency Public Websites,
       December 17, 2004

   •   Memorandum for Agency Heads from Patrick Pizzella, Assistant Secretary for
       Administration and Management, Chief Information Officer and Lisa Kruska,
       Assistant Secretary for Public Affairs, - Web-Related Acquisitions, July 29, 2005

   •   Secretary’s Order 2-2005 - Delegation of Authority and Assignment of
       Responsibility for DOL Enterprise Communications Initiative, September 30,
       2005 (Replaced Secretary’s Order 2-2003, Management of U.S. Department of
       Labor Web Sites)

U.S. Department of Labor—Office of Inspector General                                     27
Report Number: 03-06-007-01-001
Audit of Spending and Management Control of the Department of Labor Websites




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




28                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-06-007-01-001
                Audit of Spending and Management Control of the Department of Labor Websites


                                                                             APPENDIX C
ACRONYMS AND ABBREVIATIONS



       ASPA          Assistant Secretary for Public Affairs
       BLS           Bureau of Labor Statistics
       BOC           Business Operations Center
       DOL           U.S. Department of Labor
       DOLAR$        Department of Labor Accounting and Related Systems
       ECI           Enterprise Communications Initiative
       EPS           e-Procurement System
       ESA           Employment Standards Administration
       ETA           Employment and Training Administration
       FQDN          Fully Qualified Domain Name
       IDCF          Internet Data Collection Facility
       IMG           Internet Management Group
       ITC           Information Technology Center
       MSHA          Mine Safety and Health Administration
       OASAM         Office of Assistant Secretary for Administration and Management
       OCFO          Office of the Chief Financial Officer
       ODEP          Office of Disability Employment Policy
       OIG           Office of Inspector General
       OPA           Office of Public Affairs
       OPS           Office of Procurement Services
       OSHA          Occupational Safety and Health Administration




U.S. Department of Labor—Office of Inspector General                                     29
Report Number: 03-06-007-01-001
Audit of Spending and Management Control of the Department of Labor Websites




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




30                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-06-007-01-001
                Audit of Spending and Management Control of the Department of Labor Websites

                                                                             APPENDIX D
AGENCY RESPONSE TO DRAFT REPORT




U.S. Department of Labor—Office of Inspector General                                     31
Report Number: 03-06-007-01-001
